FILED
DEC - 4 2021

WAIVER

SUPREMEF COUr&LUR£

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Rosa Elba Ventura de Paulino

20-713
New York City Department of Education

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
'Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

New York City Department of Education

□ I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date:

12/2/20

(Type or print) Name

Eric Lee
0 Mr.

Firm

□ Mrs.

□ Miss

New York City Law Department

Address

100 Church Street

City & State
Phone

□ Ms.

New York, NY

212-356-4053

Zip
Email

10007

erlee@law.nyc.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT® OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Karl Ashanti, Blair Greenwald

RECEIVED
DEC 1 1 2020
sUPnft°EFCOURT~URSK

